HHS/OIG, Audit -"Review of Wisconsin Medicaid School-Based Services Program for the Year Ending June 30, 2000,"(A-05-02-00023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Wisconsin Medicaid School-Based Services Program for the
Year Ending June 30, 2000," (A-05-02-00023)
March 17, 2003
Complete
Text of Report is available in PDF format (557 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the Wisconsin Medicaid
School-Based Services (SBS) program was effectively and efficiency managed
by the Wisconsin Department of Health and Family Services (DHFS) and the SBS
providers.  Our review showed the Wisconsin DHFS and SBS providers generally
managed the SBS program in a effective and efficient manner.  We did,
however, identify some areas needing improvement:  (1) the administrative
cost calculation used an unrestricted indirect cost rate which included indirect
costs not necessary for the management of the Medicaid program, and (2) providers
did not always bill for SBS identified in individual education plans, properly
bill on dates beneficiaries received services, or maintain required supporting
documentation.  As a result, we determined that the Wisconsin DHFS and
SBS providers claimed and received at least $315,474, in Medicaid federal financial
participating (FFP) for costs not allowed or supported by adequate documentation
during state fiscal year ending June 30, 2000.  In regard to the indirect
cost rate issue, we recommended DHFS work with the Centers for Medicare and
Medicaid Services to establish the appropriate indirect cost rate.  We
also recommended the Wisconsin DHFS:  (1) refund $315,474 in FFP for costs
not allowed or supported by adequate documentation, and (2) reemphasize Medicaid
policies to providers and require them to implement effective internal controls
to ensure SBS are properly provided, billed, and documented.